 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




RYAN WHITE EVALUATION SYSTEMS

      Title II: Grants to the States




                     JUNE GIBBS BROWN
                      Inspector General

                         AUGUST 1999
                        OEI-05-98-00393
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago Regional Office prepared this report under the direction of William Moran,
Regional Inspector General. Principal OEI staff included:

REGION                                                  HEADQUARTERS

William Moran, Project Leader
                          Elise Stein, Program Specialist
Ann Maxwell, Lead Analyst
                              Rada Spencer, Program Specialist
Victoria Jacobs, Analyst
                               Alan Levine, Program Specialist
Nora Leibowitz, Analyst

Vince Greiber, New York Regional Office





       To obtain copies of this report, please call the Chicago Regional Office at (312) 353-9867.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                            EXECUTIVE SUMMARY

PURPOSE

           To examine the evaluation systems used by Title II Ryan White grantees to monitor the
           compliance, measure the outcomes and measure the overall effectiveness of the programs
           they fund.

BACKGROUND

           In 1990, Congress passed the Ryan White Comprehensive AIDS Resources Emergency
           (CARE) Act as a comprehensive response to the HIV epidemic and its impact on
           individuals, families, communities, cities, and States. The Ryan White CARE Act was re-
           authorized in fiscal year (FY) 1996 through FY 2000. Title II of the Act provides grants
           to States to improve the quality, availability and organization of health care and support
           services for individuals and families with HIV disease. In FY 1999, the States received
           $710 million in Title II funds. Most grantees disburse a portion of these funds to service
           providers through regional fiscal agents called lead agencies and planning bodies called
           consortia.

           The Ryan White CARE Act will be considered for its second re-authorization in 2000. As
           Congress debates this re-authorization, questions are certain to be asked about the
           effectiveness and impact of the programs funded. This inspection examines the capacity of
           Title II Ryan White grantees to answer those questions.

           Through an extensive documentation review and on-site interviews, we examined the
           evaluation mechanisms used in 8 States, 12 consortia/lead agencies and 5 consortia
           responsible for planning only. The eight States visited represent 61 percent of FY 1998
           Ryan White Title II funds and 68 percent of reported AIDS cases in FY 1997.

FINDINGS

In Most Sampled States, Program and Fiscal Compliance of Service Providers Is
Monitored Through Fiscal Intermediaries; Intermediaries Have Monitoring
Mechanisms in Place

           In the eight States we visited, seven of the grantees use regionally based lead agencies to
           serve as fiscal agents for the service providers. In six of the States, the lead agencies have
           primary responsibility for monitoring the program and fiscal compliance of the service
           providers. The lead agencies receive regular program and fiscal reports from the
           providers and conduct frequent site visits to providers. Likewise, the grantees receive


Ryan White Evaluation Systems: Title II              1                                       OEI-05-98-00393
           regular program and fiscal reports from the lead agencies and conduct periodic site visits
           to them. Most of the grantees and lead agencies have mechanisms in place to ensure that
           Ryan White funds are used only for eligible clients and as the payor of last resort.

Few Grantees or Lead Agencies Currently Require Outcome Measurement of
Their Service Providers; Most Are in the Early Stages of Discussion Regarding
Outcome Measures

           Currently, only 1 of the 8 State grantees and 1 of the 12 lead agencies we visited, require
           client outcomes to be measured. The majority of grantees and lead agencies are in the
           early stages of planning for outcome measurement. Concerns regarding outcomes
           measures and a desire for technical assistance from the Health Resources and Services
           Administration (HRSA) were expressed by over half of the grantees and lead agencies.

Grantees Rely on Consortia to Assess Needs; Most Consortia Routinely Assess
the Needs of Clients but Not of Persons Outside of HIV/AIDS Care

           All of the State grantees we visited rely on regional consortia to assess the needs of
           persons with HIV/AIDS and require them to do so on a routine basis. Slightly over half
           of the grantees require the consortia to submit the needs assessment results as part of the
           consortium’s annual application for funds.

           Most of the consortia or local planning bodies use both qualitative and quantitative data
           sources in their needs assessment work, including public health data, consumer and
           provider surveys, focus groups and public forums. Outside of the public health data,
           information on the needs of infected individuals not receiving HIV/AIDS care is typically
           not obtained. Of the 17 planning bodies we interviewed, only 3 reported that they have
           successfully solicited needs information from persons with HIV/AIDS not in care.

RECOMMENDATIONS

The HRSA Should Implement a Multi-year Outcomes Initiative

           The HRSA should build upon their efforts to promote outcome measurement by
           establishing a multi-year implementation plan. Outcome measurement should start on the
           provider level and lead through subsequent steps to consortia-wide analysis of client
           outcomes by the responsible fiscal agent. Outcome measurement would foster program
           improvements and greater accountability for expenditures and promote the achievements
           of the Ryan White programs.




Ryan White Evaluation Systems: Title II             2                                      OEI-05-98-00393
The HRSA Should Provide Technical Assistance to Improve the Ability of
Grantees and Consortia to Estimate the Needs of Infected Persons Not in
HIV/AIDS Care

           The HRSA currently requires grantees to estimate unmet need of persons not in
           HIV/AIDS care by comparing service utilization data to the HIV epidemic in their area.
           The HRSA should require the grantees and consortia to improve their knowledge of
           unmet need by soliciting information directly from persons not in HIV/AIDS care.

           Grantee solicitation of the input of persons unconnected to HIV/AIDS care would assist
           the grantees in complying with the re-authorized CARE Act’s directive to prioritize a
           portion of funds for emerging populations. Grantee solicitation of this input would also
           contribute to the Department’s efforts to address the greater burden of HIV/AIDS on
           racial and ethnic minorities.

           Several respondents indicated a need for technical assistance on using outreach strategies
           to solicit information from persons not in HIV/AIDS care. The HRSA could provide the
           grantees and consortia with a technical assistance document detailing effective outreach
           strategies. Particular attention should also be paid to reaching persons who receive
           HIV/AIDS services but may not be receiving primary health care services.

AGENCY COMMENTS

           While HRSA concurred with the findings and recommendations in our draft report, they
           offered suggestions for clarifying the report. Where appropriate, we changed the report to
           reflect their comments. The HRSA’s complete comments can be found in Appendix B.

           The HRSA briefly described a few activities in support of our recommendation to
           implement a multi-year outcomes initiative. We commend HRSA on these activities and
           plans. Despite their efforts in this area, HRSA expressed a few concerns regarding data
           limitations, funding limitations, and confidentiality concerns.

           We do not expect the outcomes initiative to lead to rigorous scientific evaluations
           conducted by every grantee. By examining the client-level impact of the services they
           fund, the grantees can assess in general terms the effectiveness of these services.

           Although we expect the costs involved to be minimized by emphasizing the use of data
           resources already available to the providers, many grantees may need additional financial
           resources to develop an outcomes system. We recommend that HRSA work with the
           Department to secure funds for these initiatives. The FY 2000 re-authorization of the
           CARE Act provides an optimal opportunity to consider funding for infrastructure
           development vital to ensuring efficient and effective service delivery in the future.
           The HRSA’s third area of concern - assuring client confidentiality, can be addressed by
           using unique identifiers and staff confidentiality agreements.

Ryan White Evaluation Systems: Title II             3                                     OEI-05-98-00393
                          TABLE                     OF              CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS

      Fiscal Intermediaries Perform Monitoring . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


           Few Require Outcomes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


           Adequately Assessing Client Needs, Not Those Outside of Care . . . . . . . . . . . . . . . 14


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


APPENDICES
     A: Title II Administrative Structure by State . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


           B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


           C: Related Office of Inspector General Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32





Ryan White Evaluation Systems: Title II                         4                                                 OEI-05-98-00393
                                          INTRODUCTION

PURPOSE

           To examine the evaluation systems used by Title II Ryan White grantees to monitor the
           compliance, measure the outcomes and measure the overall effectiveness of the programs
           they fund.

BACKGROUND

           This study complements our reports entitled, Ryan White Evaluation Systems, Title I:
           Grants to Metropolitan Areas (OEI-05-98-00392) and Ryan White Evaluation Systems,
           AIDS Drug Assistance Programs (OEI-05-98-00390).

The Ryan White CARE Act

           In 1990, Congress passed the Ryan White Comprehensive AIDS Resources Emergency
           (CARE) Act as a response to the HIV epidemic and its impact on individuals, families,
           communities, cities and States. The Ryan White programs provide health and support
           services to persons with HIV/AIDS who would otherwise not have access to care. The
           Ryan White programs constitute slightly over $1 billion of the $6.8 billion in HIV/AIDS
           expenditures in the U.S. Department of Health and Human Services’ Fiscal Year (FY)
           1998 budget.

           The Ryan White CARE Act was re-authorized in FY 1996 through FY 2000. Changes to
           the Act included a directive to Title II grantees to prioritize a portion of their funds for
           emerging populations.

           The Health Resources and Services Administration (HRSA) directs Ryan White resources
           to various local entities through the Act's four titles and Part F and allows grantees
           maximum flexibility in the use of funds. In FY 1998, nearly 90 percent of the Act’s funds
           were awarded to Title I and Title II grantees.

Title II of the Ryan White CARE Act

           Title II provides grants to States to improve the quality, availability and organization of
           health care and support services for individuals and families with HIV disease. Grants are
           awarded to States in accordance with the number of living AIDS cases in the State or
           territory and the estimated number of living AIDS cases outside of Title I funded eligible
           metropolitan areas. In addition to the base award, States receive earmarked funds for the



Ryan White Evaluation Systems: Title II             5                                      OEI-05-98-00393
           AIDS Drug Assistance Programs (ADAPs) through which States provide medications to
           low-income individuals with HIV disease with no or limited insurance coverage.

           Outside of the earmarked funds, States can use Title II funds to support home and
           community based health and support services, continuation of health insurance coverage,
           pharmaceutical treatments through the ADAP, HIV care consortia, and direct health and
           support services. This inspection focuses on evaluation mechanisms within the consortia
           program, as this program receives the largest share of Title II non-ADAP funds.

           Consortia are community-based regional planning entities established by Title II grantees.
           The consortia plan and prioritize Title II funds in their area, promote coordination of
           services and serve as a community forum. Representatives of local public and non-profit
           health and support service providers serve as consortium members. Incorporated
           consortium may serve as the local fiscal agent for Title II funds. In other cases,
           consortium designate a member agency to be the “lead agency,” responsible for grants
           administration and provider monitoring of Title II funds in the region. In some areas, the
           lead agency is the same agency that is responsible for the administration of Title I funds.
           (See Appendix A for a description of the consortia/lead agency structure in visited States)

OIG Evaluation Recommendations in 1995

           In a June 1995 Office of Inspector General (OIG) report, “The Ryan White CARE Act:
           Local Implementation Issues”(OEI-05-93-00336), the OIG found an absence of program
           outcome evaluation to measure the CARE Act’s impact. Beyond surveys of client
           satisfaction undertaken by providers at the local level, grantees and consortia were not
           assessing the impact of CARE Act funds on their service area.

           The OIG recommended that the Health Resources and Services Administration and the
           Assistant Secretary for Planning and Evaluation (ASPE) fund appropriate studies to assess
           the overall effectiveness of the Ryan White programs. The OIG also recommended that
           HRSA ensure grantees evaluate their own programs. The OIG suggested local
           evaluations include provider compliance reviews, outcome measure studies and overall
           program effectiveness reviews. The OIG asked HRSA to provide grantees with technical
           assistance and evaluation instruments that guarantee consistency in data collection and
           evaluation.

           The ASPE did not conduct any evaluations of the Ryan White program as recommended
           in the 1995 OIG report. However, ASPE is currently funding the HIV Costs and Services
           Utilization Study (HCSUS) with HRSA and the Agency for Health Care Policy and
           Research (AHCPR). The HCSUS examines who is treated for HIV, the health services
           HIV patients receive, the costs of the services and means of payment. The ASPE and
           AHCPR are also sponsoring a related study on the impact of health care financing
           arrangements on access to and use of new and emerging HIV therapies.



Ryan White Evaluation Systems: Title II             6                                     OEI-05-98-00393
           The Office of Science and Epidemiology, within the HIV/AIDS Bureau of HRSA, has a
           national Ryan White evaluation agenda which includes client-level data studies, links with
           secondary data sets, topic specific evaluations and the aggregate reporting system. The
           office is focusing on evaluating the following areas: 1) Enrolling under-served populations;
           2) Providing clients with care equal to that received by the insured;
           3) Providing services that remove barriers to receiving primary care; 4) Reducing
           morbidity, including opportunistic infections and perinatal transmission, and maintaining or
           increasing CD4 levels; 5) Reducing mortality; and 6) Adapting to a changing service and
           cost environment.

HRSA’s Current Evaluation Requirements

           In recent years, HRSA’s Grant Application Guidances have placed a growing emphasis on
           the ability of grantees to document and quantify the impact of the services they fund. The
           FY 1999 application guidance asks grantees to begin developing outcome measures in
           relation to four program principles: responding to the needs of the underserved and hard-
           to-serve, assuring access to emerging therapies, adapting to changes in the health care
           market, and documenting client-level outcomes. Suggested client-level outcomes include:
           decreased viral load, declines in perinatal transmission of HIV, and morbidity and
           mortality reductions. In the absence of defined outcome measures, the grantee is asked to
           describe activities they will undertake to measure impact in these areas.

           The FY 1999 Application Guidance instructs applicants to estimate unmet need for those
           in care and those not currently in the system of care in terms of their demographics,
           geographic variation across the State and their unmet need. Applicants are also instructed
           to provide quantitative data on co-morbidities, poverty status and insurance status of the
           State’s living HIV/AIDS cases.

           The FY 1999 Application Guidance asks the grantees for more information on unmet need
           to be obtained through comparisons of HIV prevalence and service utilization data. The
           Guidance emphasizes the importance of documenting unmet need and indicates future
           HRSA plans to work with the States in this endeavor.

HRSA’s Technical Assistance on Evaluation

           The HRSA has provided technical assistance to Title II grantees on conducting
           evaluations through a variety of means including: self assessment protocols, meetings to
           share evaluation strategies, and a series of monograph reports on evaluation and
           assessment. The most recent report emphasizes the importance of outcome measurement
           and provides some guidance to grantees on how to approach it. The report does not
           suggest outcomes to measure or steps to develop outcome measures. More recently,
           HRSA has suggested grantees focus on primary health care outcomes and will soon
           disseminate a publication focusing on primary health care outcome measures.


Ryan White Evaluation Systems: Title II             7                                     OEI-05-98-00393
Re-authorization in 2000

           The Ryan White CARE Act will be considered for its second re-authorization in 2000. As
           Congress debates this re-authorization, questions are certain to be asked about the
           effectiveness and impact of the programs funded. This inspection examines the capacity of
           Title II Ryan White grantees to answer those questions.

SCOPE AND METHODOLOGY

           In this inspection, we examined the mechanisms Title II grantees use to monitor
           sub-grantee program and fiscal compliance, measure the outcomes of the programs they
           fund and assess their effectiveness in meeting the evolving needs of the affected
           population. This evaluation does not judge the compliance, measure the outcomes or
           assess the effectiveness of the Title II grantees, but rather judges whether the grantees
           have and appropriately utilize the tools to perform these evaluation functions. We did not
           review HRSA’s evaluation of the grantees.

           For the purposes of this analysis, we define compliance as serving the population,
           providing the services and spending the resources as agreed to in return for the award of
           program funds. Outcomes are defined as measures of the benefits clients derive as a result
           of the program. Finally, we define overall effectiveness as how well the mix of services
           meets the evolving needs of the population affected by the epidemic.

           We conducted an on-site examination of these evaluation mechanisms in eight States: New
           York, New Jersey, Maryland, Florida, Illinois, Texas, California and the District of
           Columbia. We selected these States as a purposive sample representative of
           comparatively high rates of incidence through intravenous drug use transmission,
           comparatively high rates of infections among minority populations, and regional diversity.
           In addition, our selected States contain 68 percent of the living AIDS cases reported in
           1997 and 61 percent of the Title II funding for FY 1998.

           We conducted an extensive review of documentation provided by the grantees, consortia
           and providers. We examined States’ FY 1998 Title II grant applications, service provider
           contracts, samples of all program, fiscal, outcome and needs assessment reports, site visit
           protocols and additional evaluation materials.

           We supplemented the documentation review with on-site interviews from October through
           December 1998. In each State we interviewed: the Title II grantee, the Title II
           consortia/lead agency in up to three different regions, and at least 10 percent of the Title II
           providers. The number of providers interviewed ranged from 4 to 15. They were chosen
           to represent various program sizes, service delivery purposes and locations.

           We conducted our review in accordance with the Quality Standards for Inspections issued
           by the President’s Council on Integrity and Efficiency.

Ryan White Evaluation Systems: Title II              8                                       OEI-05-98-00393
                                          FINDINGS

In most sampled States, program and fiscal compliance of
service providers is monitored through fiscal intermediaries;
intermediaries have monitoring mechanisms in place
           In the eight States we visited, seven of the grantees use regionally based lead agencies to
           serve as fiscal agents for the service providers. The grantees monitor the lead agencies
           and the lead agencies monitor the providers. The lead agencies determine funding awards
           in accordance with a service plan developed by the regional consortium or planning body.
           In six of the States, the lead agencies have primary responsibility for monitoring the
           program and fiscal compliance of the service providers. In two of these six States, the
           grantees keep abreast of individual provider performance by reviewing the reports
           providers submit to the lead agency or by accompanying the lead agency on site visits. In
           the other four States, the grantees leave all provider monitoring responsibilities to the lead
           agencies.

Grantees receive regular program and fiscal reports from lead agencies and most
conduct periodic site visits to lead agencies

           All of the grantees we visited receive monthly or quarterly program and fiscal reports from
           the lead agencies. Program reports typically contain compiled program data, such as the
           units of service provided and the number and demographics of clients served, as well as a
           narrative section on program accomplishments and barriers. Fiscal reports are typically
           expense vouchers or invoices of line item costs.

           Most of the grantees we visited reimburse the lead agencies based on a line item budget.
           A couple of the grantees reimburse lead agencies on a fee-for-service or unit cost basis.
           Some grantees advance the lead agencies a portion of their funds to facilitate the flow of
           the grant making process. All but one of the grantees requires the lead agencies to have
           an independent audit performed. The majority of grantees require the audits to be
           submitted for review on an annual basis.

           Most of the grantees conduct formal site visits to the lead agencies at least once every 2
           years. Two of the grantees have not routinely visited lead agencies but plan to conduct
           routine visits in the future. One of these grantees plans to visit lead agencies once every
           3 years.




Ryan White Evaluation Systems: Title II              9                                       OEI-05-98-00393
Lead agencies receive regular program and fiscal reports from providers and
conduct frequent site visits to providers

           All of the lead agencies we visited receive monthly or quarterly program and fiscal reports
           from their service providers. The program and fiscal reports contain similar information to
           that which the lead agencies report to the grantees. While most of the grantees reimburse
           lead agencies based on a line item budget, the majority of lead agencies reimburse
           providers on a fee-for-service or unit cost basis or have plans to do so. Nearly all of the
           lead agencies require and review annual audits of the providers.

           The majority of sampled lead agencies conduct formal site visits to service providers at
           least once a year and as often as quarterly. Site visits typically include a review of a
           sample of client files, financial records and other support documentation used for
           reporting. Most of the lead agencies also informally monitor providers through ongoing
           communication and individualized technical assistance.

Most grantees and lead agencies have mechanisms to ensure that Ryan White
funds are used only for eligible clients and as the payor of last resort

           All of the grantees and lead agencies have mechanisms in place to ensure that providers
           verify client eligibility for Ryan White services. Six of the eight grantees and most of the
           lead agencies also have mechanisms to ensure that providers use Ryan White funding as
           the payor of last resort. The grantees and lead agencies include eligibility and payor
           requirements in written policy and procedural manuals and check relevant documentation
           on site visits. A few lead agencies do not routinely verify provider use of Ryan White
           funds as the payor of last resort. These lead agencies indicated awareness of the need to
           devote more attention to this area in the future.

           Most of the service providers we visited have mechanisms in place to ensure that they use
           Ryan White funds as the payor of last resort, such as documenting Medicaid and private
           insurance coverage in client files and billing accordingly. However, a few of the ancillary
           service providers we visited appeared unaware of the rules or their responsibility in this
           area. A few also appeared to be unclear of the services paid for by Medicaid in their
           State. In addition, service providers have varying capacity to check Medicaid eligibility.




Ryan White Evaluation Systems: Title II             10                                      OEI-05-98-00393
Few Grantees or Lead Agencies Currently Require Outcome
Measurement of Their Service Providers; Most Are in the
Early Stages of Discussion Regarding Outcome Measures

Currently, Only One of the Eight State Grantees and One of the Twelve Lead
Agencies We Visited, Require Client Outcomes to Be Measured

           The New York grantee currently requires outcome measures for three service categories,
           primary care, dentistry and case management. Primary care and dentistry are measured
           according to professional clinical guidelines and expected clinical health outcomes. An
           independent peer review organization monitors providers’ performance on a set of core
           indicators such as CD4 count and gynecological health. These are tracked by a common
           software package that aggregates individual level clinical data entered to manage patient
           care. The grantee is also piloting outcomes in case management in the following areas:
           optimal health, financial/entitlements, independent living, adult education/employment,
           family stability, mental health, substance abuse and client empowerment.

           The Sacramento County Department of Health and Human Services, the lead agency for
           Title II funds in the Sacramento area, requires providers to report outcome measures on a
           quarterly basis. Since reporting compliance was low in the initial 6 months, the lead
           agency is developing a standard format for outcome reporting. Outcome measures are a
           required component of the provider quarterly reports as of FY 1999.

           The rest of the grantees and lead agencies rely on process measures to measure the
           success of service providers. These measures, along with annual goals, are usually
           outlined in the scope of work section of a provider’s contract. The process measures
           typically consist of the number of clients served and the number of service units delivered
           in the contract year. Some contracts require that the measures be broken down by sub-
           population, with a special emphasis on women and children.

A few providers currently report outcomes; many others have client outcomes in case files

           A few providers in several localities have developed aggregate outcomes to measure the
           impact of the services they provide. These providers have taken the initiative due to the
           requirements of other funding sources or their own desire for greater program
           accountability. Though they are not required to, these agencies typically submit their
           outcome information to their lead agencies as part of their quarterly or annual progress
           reports.

           The outcome measures developed by the Mount Carmel Guild in Mercer County New
           Jersey provide an example of the type of outcome measures some providers are using. The


Ryan White Evaluation Systems: Title II             11                                     OEI-05-98-00393
           Mount Carmel Guild provides nutritional counseling, nutritional food packages and
           personal care packages for HIV infected clients. They have a set of outcome measures
           that are tracked for each client and aggregated to evaluate overall program performance.
           The measures include weight loss, weight gain, weight stabilization, cholesterol level,
           albumin level and routine vitamin intake. The nutritionist routinely tracks progress on
           these outcomes by client and aggregates them annually through a random audit of 50
           client charts. The organization has plans underway to refine this process by analyzing
           outcomes across sub-populations.

           Many other providers we visited collect client information which could be used to measure
           program outcomes if aggregated. For example, case managers often establish client goals
           at intake and document progress towards these goals in a client’s case file. Physicians also
           typically record clinical progress in patient charts. In these situations, a client’s progress
           or the progress of the caseload in general may be discussed at organizational meetings, but
           agencies do not aggregate the client outcomes and are not able to compare outcomes
           across client groups, service strategies or over time. Nor do they report outcomes to the
           lead agency or grantee.

The Majority of Grantees and Lead Agencies We Visited Are in the Early Stages of
Planning for Outcome Measurement

           Most State grantees are in various stages of planning for outcome measures. Two State
           grantees are discussing the development of outcome measures in the near future. Both are
           planning on developing a core set of outcomes at the State level with provider input. One
           has begun by introducing the concept of outcome measurement to its providers to solicit
           their feedback. The other grantee is setting up a task force to focus on outcome
           measures. This task force is soliciting information from other Ryan White programs and is
           searching for a consultant to help them devise a strategy to develop outcome measures in
           a participatory manner. They are also considering contracting a local university to define
           the measures once they are selected.

           Other State grantees, while not yet engaged in outcomes discussions, are laying the
           groundwork for future outcome measurement. A few are developing standards of care. It
           is their belief that this standardization of service provision is necessary in order to hold
           providers accountable to a common set of outcome measures. Several grantees are
           working to improve their databases which will facilitate the collection of outcome
           measures. The improvements include projects such as developing the capacity to collect
           client-level data and devising standard data definitions to assure accurate and reliable
           reporting.

           Half of the lead agencies are also engaged in the development of outcome measures. Half
           of these agencies indicated that they are actively engaged in putting outcome measures in
           place by the FY 1999 grant cycle. The other half are in the very early stages of discussion
           surrounding the implementation of outcome measurement.

Ryan White Evaluation Systems: Title II             12                                      OEI-05-98-00393
           Agencies actively pursuing outcome measures are doing so by formulating a core set of
           outcome measures. One agency has, based on the United Way model1, met with all of the
           providers to assess the data they are collecting and their capacity to aggregate outcome
           measures with minimal additional burden. This information will be used to create a set of
           outcomes for each service category. Another lead agency, already receiving voluntary
           outcome measures from its providers, has compiled a list of all of the outcome measures
           reported and is in the process of selecting a core set of measures. Another agency has
           hired a consultant to develop a set of quality indicators in consultation with staff and
           providers. This agency plans to recommend a set of outcome measures and require that
           providers incorporate a minimum of three outcome measures per service category.

           Other lead agencies are aware of the management and accountability benefits of utilizing
           outcome measures, but are still “figuring out their approach.” While they indicate plans to
           have outcomes in place by FY 2000, they have no specific plans underway.

More than Half of the Grantees and Lead Agencies Expressed Concerns
Regarding Outcomes Measures

           Grantees and lead agencies share a variety of concerns regarding the development of
           outcome measures. Several respondents noted that the administrative cap limits the
           amount of money available to track outcomes. Additional grant funds that can be set
           aside for outcome measurement would be in direct competition with direct service funds.
           There are also capacity concerns. A number of grantees and lead agencies are concerned
           that they do not possess the technical expertise to develop outcome measures that would
           appropriately reflect the diversity of service delivery and which could be attributed solely
           to the infusion of Ryan White funds. Respondents also questioned the ability of planning
           bodies to properly understand and utilize outcome measures. Providers voiced similar
           concerns regarding outcome measures. In particular, they felt that they did not have the
           resources or skills to properly develop or monitor client outcomes.

           Respondents also questioned whether the State and local levels are the appropriate place
           to develop and conduct outcome measurement. Many respondents feel that outcome
           measures should be uniform across Ryan White Titles, the State and the country in order
           to reduce the reporting burden and to allow for meaningful comparisons between
           programs. Some also feel that Ryan White outcome measures should relate to the
           outcomes measures of other Federal agencies that support HIV services, such as the
           Department of Housing and Urban Development, and the Public Health Service goals for
           the year 2000. In addition, several respondents suggested that tracking outcomes at the
           national level would be more cost-effective. Respondents indicated that with uniform
           measures HRSA could take advantage of sampling methodologies to reduce the amount of

           1	
                      The United Way approach emphasizes developing outcomes reflective of an agency’s goals and
                      recommends using data sources readily available to agencies such as client records and responses
                      to routinely administered standardized tests and measurements.


Ryan White Evaluation Systems: Title II                     13                                          OEI-05-98-00393
           labor involved. The HRSA could also tap into the capacity and resources that already
           exist in the medical research field.

Majority of grantees desire technical assistance from HRSA on outcome
measurement

           Grantees requested that HRSA clearly delineate and communicate the direction they are
           headed with regards to outcome measures. Grantees asked for a definition of what is
           meant by outcome measures and what outcome measures are appropriate for specific
           service categories.

           Several grantees also want HRSA to offer guidance on how to design an inclusive process
           of developing outcomes, how to measure service outcomes and how to build
           organizational capacity to interpret and analyze outcomes. They want answers to
           questions such as: How do you create indicators that provide the information you are
           after? How do you track outcome measures over time? How do you get the necessary
           information from the client or their provider? What about confidentiality issues? The
           respondents suggested that the answers to these questions could be provided through
           workshops, dissemination of best practices and national conferences, designed to promote
           information exchange among the grantees.

Grantees rely on consortia to assess needs; most consortia
routinely assess the needs of clients but not of persons
outside of HIV/AIDS care
           All of the State grantees we visited rely on regional consortia to assess the needs of
           persons with HIV/AIDS and require them to conduct periodic assessments. Slightly over
           half of the grantees we visited require the consortia to submit needs assessment results as
           part of the consortium’s annual application for funds. A couple of grantees supplement
           the local needs assessments with limited Statewide assessments of specific issues or sub-
           populations. None of the grantees currently conduct comprehensive assessments of the
           needs of the HIV/AIDS population in their State. However, in compliance with Federal
           law, all of the State grantees review local needs assessments to identify Statewide needs as
           part of the Statewide Coordinated Statement of Need (SCSN) process.2 Building on the
           momentum of the SCSN process, two of the grantees are planning to conduct a
           Statewide needs assessment in FY 1999.



           2	
                      The 1996 CARE Act legislation requires all Ryan White grantees to participate in a Statewide
                      Coordinated Statement of Need (SCSN) process to collaborate in identifying and addressing HIV
                      care issues. The SCSN is to be based on existing information from local needs assessments.
                      Starting in FY 1998 Title II grantees are required to submit a copy of the SCSN with their grant
                      applications and update the SCSN every three years, at a minimum.


Ryan White Evaluation Systems: Title II                     14                                          OEI-05-98-00393
Most grantees do not specify what to include in the needs assessment

           Most of the grantees we visited do not specify what the consortia must include in their
           needs assessment or provide a standard tool for conducting the needs assessment. A few
           of the grantees provide some guidance to the consortia on how to conduct the needs
           assessment and on the types of information they are expected to collect. For example, the
           Florida grantee specifies what types of entities and population groups the consortium
           should consult with in the assessment. Lead agencies in Florida are also directed to
           include an epidemiological profile, a demographic survey, focus groups, a resource
           inventory and a profile of provider capacity. Two of the State grantees are in the process
           of developing a standard needs assessment tool for use by their consortium.

Most consortia do not assess the needs of infected persons not in HIV/AIDS care

           We interviewed 17 planning bodies responsible for conducting local Title II needs
           assessments, including 5 “HIV/AIDS care networks” in New York and several Title I
           planning councils who assess needs for both Title I and Title II services. Most of the
           consortia or planning bodies use both qualitative and quantitative data sources in their
           needs assessment work, including public health data, consumer and provider surveys,
           focus groups and public forums.

           Outside of the public health data, information on the needs of infected individuals not
           receiving HIV care is usually not obtained. Of the 17 planning bodies interviewed, only 3
           reported that they have successfully solicited needs information from persons with
           HIV/AIDS who are not in care. A few others indicated that they may have obtained needs
           information from infected persons not in care through public forums, but these forums
           were not targeted to this population. Two of the other needs assessment bodies tried to
           solicit information from persons not in HIV/AIDS care through advertising in local
           newspapers and through substance abuse facilities, but were reportedly unsuccessful.

           The three consortia successful in obtaining the input of persons not in HIV/AIDS care
           used peers and street outreach to solicit input. Two of the consortia trained persons living
           with HIV to survey infected persons in non-HIV/AIDS provider locations such as shelters
           and community groups. One care network in New York conducted focus groups in
           shooting galleries and crack houses to solicit information on needs from persons outside of
           the HIV/AIDS care system.




Ryan White Evaluation Systems: Title II             15                                     OEI-05-98-00393
                              RECOMMENDATIONS


The HRSA should implement a multi-year outcomes initiative

           The HRSA should build upon their efforts to promote outcome measurement by
           establishing a multi-year implementation plan. Outcome measurement should start on the
           provider level and lead through subsequent steps to consortia-wide analysis of client
           outcomes by the responsible lead agency.3 Outcome measurement would foster program
           improvements and greater accountability for expenditures and promote the achievements
           of the Ryan White program.

           Here is one option of how HRSA could proceed:

           <	       In stage one, HRSA could develop one or more core outcomes for each service
                    category and require the grantees to direct the lead agencies of the Title II consortia
                    to develop three additional outcomes for each service category. The HRSA’s core
                    outcomes could be used for both Title II and Title I grantees and should be aligned
                    with the performance goals outlined in HRSA’s annual performance plan. The
                    HRSA should urge Title II lead agencies to work with co-located Title I grantees
                    and planning bodies in establishing the consortia-level outcome measures, so as to
                    avoid imposing a greater measurement burden on providers funded under both
                    Titles.

           <	       In stage two, HRSA could require the grantees to direct the lead agencies of the
                    consortia to collect the established outcome measures from the providers on a
                    quarterly basis. The HRSA should also urge the grantees and the lead agencies to
                    require providers to report outcome measures as client-level data. These agencies
                    will need client-level outcome data in order to analyze client outcomes across the
                    region in stage three.

           <	       In stage three, HRSA could require the grantees to direct the lead agencies of the
                    consortia to analyze the reported outcome measures across services and report
                    consortia-wide outcomes to HRSA via the grantees on an annual basis.

           In establishing the core outcomes, HRSA should place a greater emphasis on primary
           health care outcomes since the ultimate goal of the Ryan White CARE Act is improved


           3
                      In States where grantees, rather then regional consortia, have direct oversight over providers, the
                      responsibility of developing, collecting and analyzing outcomes would fall to the State.


Ryan White Evaluation Systems: Title II                      16                                            OEI-05-98-00393
           health status. However, at least one core outcome should be developed for each support
           service category. The outcomes for the support services should reflect the contribution
           the support services make to improved health status such as facilitating access to primary
           care or creating conditions conducive to following and benefitting from a structured health
           care regimen. Measuring these incremental outcomes would provide valuable information
           on the contribution of these services to health outcomes. This information could be used
           for accountability and program improvement purposes. Confidentiality concerns can be
           overcome using staff confidentiality agreements and unique identification numbers, rather
           than client name, to track clients.

           The outcome measurement initiative can serve as a means for HRSA to further promote
           continuous quality improvement (CQI) efforts. Through CQI, information on the
           effectiveness and quality of program delivery is fed back to program managers on a
           continuous basis, serving as a tool for managers to improve program delivery. While
           quality assurance and process indicators are used to gauge the quality of services
           delivered, outcome measures can be used to gauge service effectiveness. The HIV/AIDS
           service providers could use outcome measures along with quality of care indicators to
           improve their performance through program alterations and further self-evaluation under
           CQI.

           As the Ryan White CARE Act faces its second decade of providing care to persons
           infected with HIV/AIDS, it is time to ensure that the grantees have the capacity to
           evaluate the outcomes of the services they deliver. Outcome evaluation as a CQI tool is
           vital to strengthening the effectiveness of the services delivered and the efficiency of the
           funds expended to provide the services. This basic need for appropriate funding should be
           addressed in the re-authorization of the CARE Act in FY 2000.

           The HRSA should provide the grantees with technical assistance to implement the core
           outcome measures and to develop and implement their own additional outcome measures
           within a CQI framework. The technical assistance could emphasize soliciting provider
           input in the development of the additional outcomes, using the United Way approach.

           The United Way approach to outcome measurement emphasizes using outcome measures
           for program improvement purposes. To this end, the United Way emphasizes soliciting
           provider input in the development of outcome measures to make sure that outcome
           measures reflect program goals. The United Way also stresses the importance of
           considering the data resources already available to the providers when developing
           outcome measures so as not to impose too much additional administrative or cost burden.

           The United Way’s approach recognizes the limited capacity of health and human service
           providers to engage in rigorous outcome evaluation. Hence, the United Way model
           emphasizes contribution rather than attribution. Using outcome measures, providers can
           determine if clients achieve an expected result after receiving their service intervention.
           While the provider is not able to scientifically prove that the result is due solely to their


Ryan White Evaluation Systems: Title II              17                                      OEI-05-98-00393
           intervention, they can see whether their service is contributing to positive outcomes on a
           regular basis.

           In recent years, HRSA’s application guidance to Title II grantees has stressed the
           importance of documenting outcomes and has asked grantees to include outcome data in
           their applications. All of our respondents have received the message from HRSA that
           outcome measures are important and that HRSA expects them to move ahead in this area.
           However, respondents stated that they would like more specificity from HRSA on what
           outcomes they are expected to measure and on HRSA’s implementation plans.

           Stronger leadership from HRSA on outcome measurement would help coordinate efforts
           that remain fragmented at various levels of the Title II program. Further, outlining a
           multi-year initiative would provide grantees and the lead agencies with the necessary
           perspective to strategically plan for the future. As HIV/AIDS has evolved from an
           emergency epidemic to a chronic disease in a tight health care market, it is critical that the
           agencies serving infected individuals build the capacity to provide care efficiently and
           effectively through the productive use of outcome and impact studies.

The HRSA should provide technical assistance to improve
the ability of grantees to estimate the needs of infected
persons not in HIV/AIDS care
           In the FY 1999 Application Guidance, HRSA emphasizes the importance of obtaining
           information on unmet need, acknowledges the difficulty of obtaining this information and
           pledges to work with States to address this area in the future. The HRSA should build on
           this effort by requiring the grantees and consortia to solicit needs information from
           persons not in HIV/AIDS care and by providing technical assistance on how to do this. In
           turn, the grantees should provide the consortia and other Title II planning bodies with
           guidance on needs assessment expectations and on methods to obtain the required
           information.

           Currently, grantees are required to use public health data to estimate unmet need in their
           applications to HRSA. This data provides useful information on the needs of infected
           persons. However, the input of persons outside of the care system would add a richness
           of understanding regarding their needs and the barriers to service they encounter.

           Grantee solicitation of the input of persons un-connected to HIV/AIDS care would assist
           the grantees in complying with the re-authorized CARE act’s directive to prioritize a
           portion of funds for emerging populations. Grantee solicitation of this input would also
           contribute to the Department’s efforts to address the greater burden of HIV/AIDS on
           racial and ethnic minorities.




Ryan White Evaluation Systems: Title II              18                                      OEI-05-98-00393
           In their attempt to fulfill the CARE Act’s requirement to prioritize funds for emerging
           populations, HRSA should urge the grantees to strive to reach persons unconnected to
           HIV/AIDS care, in addition to efforts to reach persons who demographically reflect the
           emerging populations. The HRSA should urge the grantees to recognize the complexity
           and disproportionate costs which may be involved in serving persons unconnected to
           HIV/AIDS care. Persons infected by HIV/AIDS are increasingly individuals who are
           traditionally not connected to the health care system for reasons such as poverty and
           historic mistrust of institutional health care. A focused outreach and planning strategy is
           required to address their needs.

           The HRSA’s technical assistance materials on conducting needs assessments urge grantees
           to solicit information from persons not in care. The materials suggest avenues for
           soliciting this information, such as substance abuse clinics and homeless shelters. Outside
           of suggesting that consortia provide incentives like food vouchers or use the media to
           solicit participation, the materials do not describe specific outreach strategies. As these
           ideas are discussed only generally, we suggest HRSA provide more detailed information
           on steps to solicit needs information. Several consortia representatives indicated that they
           would like more guidance on how to reach infected persons not in care.

           The HRSA could provide the grantees and the consortia with a technical assistance
           document devoted to soliciting needs information from people living with HIV/AIDS who
           are not in HIV/AIDS care, providing steps for conducting outreach and examples of
           effective strategies. The HRSA could highlight outreach strategies which have been used
           by other Ryan White grantees, Centers for Disease Control and Prevention HIV
           prevention community planning groups and service providers in other arenas. Particular
           attention should also be paid to reaching persons who receive HIV/AIDS services but may
           not be receiving primary health care services.




Ryan White Evaluation Systems: Title II             19                                      OEI-05-98-00393
                               AGENCY COMMENTS
           The HRSA provided comments to the draft report. While HRSA concurred with the
           report’s findings and recommendations, they offered suggestions for clarifying the report
           and making other technical changes. Where appropriate, we changed the report to reflect
           their comments. The complete text of HRSA’s comments can be found in Appendix B.

           The HRSA briefly described a few activities planned or underway in support of our
           recommendation to implement a multi-year outcomes initiative. We commend HRSA on
           these activities and plans. Despite their efforts in this area, HRSA expressed a few
           concerns regarding their ability to carry out this recommendation: 1) limitations on
           accessibility and compatibility of data sets, 2) restrictions on administrative costs
           impacting a Grantee’s ability to use complex data sets for outcome studies, and
           3) confidentiality concerns.

           These limitations are to be expected in a large endeavor but are not insurmountable. For
           this reason we recommend an outcomes approach designed with feasibility as a
           cornerstone. We do not expect the outcomes initiative to lead to rigorous scientific
           evaluations conducted by every grantee. The HRSA is funding such projects on a limited
           basis where the capacity exists. It is not feasible, nor is it necessary, for every grantee to
           participate in this work. What is feasible and necessary for every grantee to undertake is
           an assessment of the effectiveness of the services they fund. By examining the
           contributions made by the services to client outcomes, the grantees can assess, in general
           terms, the effectiveness of these services. We highlight the United Way approach which
           emphasizes contribution, rather than attribution, for this reason.

           Although we expect the costs involved to be minimized by emphasizing the use of data
           resources already available to the providers, many grantees may need additional financial
           resources to develop an outcomes system, depending upon the size of their grant and
           competing demands on limited administrative funds. We recommend that HRSA work
           with the Department to secure funds for these initiatives. The FY 2000 re-authorization
           of the CARE Act provides an optimal opportunity to consider funding for infrastructure
           development vital to ensuring efficient and effective service delivery in the future.

           The HRSA’s third area of concern - assuring client confidentiality, can be addressed by
           using unique identifiers and staff confidentiality agreements. Grantees collecting client-
           level information have used these measures successfully to address confidentiality
           concerns.

           We commend HRSA’s efforts to address our recommendation to improve the ability of
           grantees to estimate the needs of infected persons not in HIV/AIDS care. We urge HRSA
           to disseminate technical assistance information to grantees in this area as soon as possible,
           as the population of infected persons outside of care continues to grow.

Ryan White Evaluation Systems: Title II              20                                      OEI-05-98-00393
                                                                           APPENDIX A


                                     Structure of Title II Programs


CALIFORNIA

           The California Department of Public Health is the Title II grantee agency. Funds are
           dispersed through 37 regionally-based consortium. Each consortium has a lead agency
           which is responsible for the fiscal and administrative functions of the Title II consortia
           program in their region. The State monitors the lead agencies and requires them to
           monitor the programmatic and fiscal compliance of the service providers they fund.

           In Eligible Metropolitan Areas, the lead agency is typically the same as the Title I grantee.
           For example, the Los Angeles County Department of Health Services receives Title I
           funds and also acts as the fiscal intermediary for the Title II consortium funds. In these
           situations, a planning council that has merged with the local consortia is responsible for
           advising the lead agency regarding needs and service priorities. In non-EMA areas, the
           lead agencies are counseled by a regional consortia as to the service priorities of that area.

THE DISTRICT OF COLUMBIA

           The District of Columbia Department of Health is the Title II grantee. The Department of
           Health has designated the DC CARE Consortium to be responsible for conducting needs
           assessments, planning service delivery, promoting service coordination and monitoring the
           program and fiscal activities of the service providers. The Department of Health maintains
           some oversight over provider-level activities by reviewing individual provider reports
           submitted to the consortium and by accompanying the consortium on some provider site
           visits.

FLORIDA

           The Florida Department of Health is the Title II grantee agency. The Department of
           Health has established 14 regionally based consortia to provide a continuum of care for
           HIV infected persons throughout the State. The consortia plan and prioritize Title II
           funds in their area, promote coordination of services and serve as a community forum.

           Each consortium has a lead agency which is responsible for the fiscal and administrative
           functions for the Title II consortia program in their region. In some consortia areas, the
           Department of Health serves as the lead agency for the consortium. In other areas, the



Ryan White Evaluation Systems: Title II              21                                      OEI-05-98-00393
                                                                         APPENDIX A

                                     Structure of Title II Programs

local consortia designate a lead agency. All of the lead agencies in the State act as the fiscal
conduit and data coordinator for the service providers in their area.

ILLINOIS

           The Illinois Department of Public Health HIV/AIDS Section administers the Title II
           program in Illinois. The Department relies on 11 lead agencies to disperse the funds
           regionally and to monitor service providers. The State monitors the lead agencies.
           Regional consortium plan and prioritize Title II funds in their area and promote
           coordination of services.

MARYLAND

           The Maryland Department of Health and Mental Hygiene AIDS Administration is the Title
           II grantee agency. There are now five lead agencies that disperse the Title II funds
           regionally in accordance with a consortia developed service priority and allocation plan.
           The State has oversight over the lead agency’s funding decisions. The State also retains
           control over monitoring the service providers. Both the lead agencies and service
           providers are required to submit their routine program and fiscal reports to the State
           Title II staff.

NEW YORK

           The New York State Department of Health is the designated Title II grantee. The AIDS
           Institute of the Department of Health operates the Title II program. The AIDS Institute
           contracts with 17 Consortia, 16 of which are regionally based and one which is a
           Statewide consortium for special populations. The consortia, otherwise known as “HIV
           care networks” are responsible for conducting local needs assessments, identifying local
           service priorities and developing service delivery plans. The AIDS Institute determines
           funding allocations and awards contracts directly to service providers, in accordance with
           the networks’ service delivery plans. The Institute maintains fiscal and administrative
           oversight of the service providers funded through the Title II program, rather than use
           regionally based lead agencies.




Ryan White Evaluation Systems: Title II            22                                     OEI-05-98-00393
                                                                          APPENDIX A

                                     Structure of Title II Programs


NEW JERSEY

           The New Jersey Department of Health and Senior Services is the Title II grantee. The
           Department allocates its Title II consortia funds to 10 consortia, 9 of which are regionally
           based and one of which is a Statewide network of hospital sites serving HIV-infected
           women and children. New Jersey is in the process of phasing out the six regional
           consortia which are located in Title I EMAs. The New Jersey consortia are responsible
           for planning and coordination activities. Each consortium designates a lead agency to
           handle fiscal and administrative responsibilities for the region. Although monitoring
           responsibilities primarily fall to the lead agencies, the State grantee maintains some
           oversight over the activities of local service providers. The lead agencies determine
           contract awards but provider contracts are subject to the review of the grantee. The
           grantee also conducts annual site visits to all service providers.

TEXAS

           The Texas Department of Health is the Title II grantee agency. They allocate funds to 26
           regionally-based lead agencies which are either a local health department or a community
           organization. The State monitors the lead agencies and relies on the lead agencies to
           monitor the programmatic and fiscal compliance of the service providers they fund.
           Funding decisions made at the local level are directed by regional consortia.

           The Title II structure in Austin differs from the rest of Texas. In Austin, the Austin/Travis
           County Health and Human Services Department is the lead agency for the Title I funds
           and Title II consortium funds. The local planning council performs the priority setting
           and allocation for both Title I and Title II funds to all 10 counties.




Ryan White Evaluation Systems: Title II             23                                     OEI-05-98-00393
                                                             APPENDIX B


                                          Agency Comments





Ryan White Evaluation Systems: Title II          24               OEI-05-98-00393
                                                             APPENDIX B


                                          Agency Comments





Ryan White Evaluation Systems: Title II          25               OEI-05-98-00393
                                                             APPENDIX B


                                          Agency Comments





Ryan White Evaluation Systems: Title II          26               OEI-05-98-00393
                                                             APPENDIX B


                                          Agency Comments





Ryan White Evaluation Systems: Title II          27               OEI-05-98-00393
                                                             APPENDIX B


                                          Agency Comments





Ryan White Evaluation Systems: Title II          28               OEI-05-98-00393
                                                             APPENDIX B


                                          Agency Comments





Ryan White Evaluation Systems: Title II          29               OEI-05-98-00393
                                                             APPENDIX B


                                          Agency Comments





Ryan White Evaluation Systems: Title II          30               OEI-05-98-00393
                                                             APPENDIX B


                                          Agency Comments





Ryan White Evaluation Systems: Title II          31               OEI-05-98-00393
                                                                        APPENDIX C


                    Related Office of Inspector General Reports



The Ryan White CARE Act: Local Implementation Issues (OEI-05-93-00336)


The Ryan White CARE Act: Examples of Local Coordination (OEI-05-93-00335)


The Ryan White CARE Act: Special Projects of National Significance (OEI-05-93-00332)


The Ryan White CARE Act: Technical Report of 1992 Expenditures (OEI-05-93-00334)


The Ryan White CARE Act: Funding Formulas (OEI-05-93-00330)


Medicaid Managed Care and HIV/AIDS (OEI-05-97-00210)


Audit of State AIDS Drug Assistance Programs’ Use of Drug Price Discounts (A-01-97-01501)


Review of Maximizing Drug Discounts Under the Missouri Ryan White Program
(A-01-97-00926)

Audit of the Ryan White Comprehensive AIDS Resource Emergency Act of 1990, Title II,
Administered by the Health Resources and Services Administration (A-01-97-01500)

Audit of Eligibility Under Title I of the Ryan White Comprehensive AIDS Resource Emergency
Act of 1990, New York Metropolitan Area (A-02-95-02517)

Audit of the Ryan White Comprehensive AIDS Resource Emergency Act of 1990, Title II,
Administered by the State of Connecticut (A-01-96-01501)

Audit of the Ryan White Comprehensive AIDS Resource Emergency Act of 1990 in the Boston
Metropolitan Area for Fiscal Year 1994 (A-01-95-01504)




Ryan White Evaluation Systems: Title II     32                                   OEI-05-98-00393
